                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report

Subject:


  AUDIT OF THE INFORMATION TECHNOLOGY
          SECURITY CONTROLS OF THE
  U.S. OFFICE OF PERSONNEL MANAGEMENT’S
  BENEFEDS AND FEDERAL LONG TERM CARE
        INSURANCE PROGRAM SYSTEMS
                    FY 2014
                                           Report No. 4A-RI-00-14-036

                                                                   August 19, 2014
                                           Date:




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report

                              U.S. OFFICE OF PERSONNEL MANAGEMENT
                               -------------------------------------------------------------
              AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
           CONTROLS OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT’S
              BENEFEDS AND FEDERAL LONG TERM CARE INSURANCE
                              PROGRAM SYSTEMS
                                        FY 2014
                             --------------------------------
                               WASHINGTON, D.C.




                                          Report No. 4A-RI-00-14-036


                                          Date:                    August 19, 2014




                                                                                     Michael R. Esser
                                                                                     Assistant Inspector General
                                                                                       for Audits

                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                    Executive Summary

                   U.S. OFFICE OF PERSONNEL MANAGEMENT
                    -------------------------------------------------------------
        AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
     CONTROLS OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT’S
        BENEFEDS AND FEDERAL LONG TERM CARE INSURANCE
                        PROGRAM SYSTEMS
                                  FY 2014
                       --------------------------------
                         WASHINGTON, D.C.




                               Report No. 4A-RI-00-14-036


                                                   August 19, 2014
                               Date:

This final audit report discusses the results of our audit of the information technology security
controls of the U.S. Office of Personnel Management’s (OPM) BENEFEDS and Federal Long
Term Care Insurance Program (FLTCIP) information systems. Our conclusions are detailed in
the “Results” section of this report.

Security Assessment and Authorization (SA&A)
SA&A’s were completed for BENEFEDS and FLTCIP in March 2013. We reviewed the
authorization package for all required elements of an SA&A, and determined that both SA&As
appear to have been conducted in compliance with National Institute of Standard and
Technology (NIST) requirements.

Federal Information Processing Standards (FIPS) 199 Analysis
The security categorization of both the BENEFEDS and FLTCIP systems appears to be
consistent with FIPS 199 and NIST Special Publication (SP) 800-60 requirements, and we agree
with the categorization of “moderate.”


                                                    i
System Security Plan (SSP)
We reviewed the BENEFEDS and FLTCIP SSPs and determined they adequately address each
of the elements suggested by NIST.

Security Assessment Plan and Report
A security control assessment plan and report was completed for BENEFEDS and FLTCIP in
July 2012 as a part of each system’s SA&A.

Security Control Self-Assessment
We were provided with evidence that a security controls test was conducted in 2013 by an
independent third-party. However, we are unable to verify that the assessment was conducted in
accordance with OPM policy.

Contingency Planning and Contingency Plan Testing
The contingency plans for both BENEFEDS and FLTCIP closely follow the format suggested by
NIST SP 800-34 Revision 1, and both systems have been tested in accordance with the published
guidance.

Privacy Impact Assessment (PIA)
A privacy threshold analysis was completed for BENEFEDS and FLTCIP and determined that a
PIA was required. A PIA was conducted in February 2013.

Plan of Action and Milestones (POA&M) Process
The BENEFEDS and FLTCIP POA&Ms follow the format of the OPM POA&M guide, and
have been routinely submitted to the Office of the Chief Information Officer for evaluation.

NIST SP 800-53 Revision 3 Evaluation
We evaluated the degree to which a subset of the IT security controls outlined in NIST SP 800-
53 Revision 3 was implemented for the BENEFEDS and FLTCIP systems. We determined that
several controls could be improved.




                                               ii
                                                                 Contents
                                                                                                                                               Page

Executive Summary ......................................................................................................................... i
Introduction ......................................................................................................................................1
Background ......................................................................................................................................1
Objectives ........................................................................................................................................1
Scope and Methodology ..................................................................................................................2
Compliance with Laws and Regulations..........................................................................................3
Results ..............................................................................................................................................4
         I. Security Assessment and Authorization ............................................................................4
        II. FIPS 199 Analysis .............................................................................................................4
       III. System Security Plan ........................................................................................................4
      IV. Security Assessment Plan and Report ...............................................................................5
        V. Security Control Self-Assessment .....................................................................................5
      VI. Contingency Planning and Contingency Plan Testing ......................................................6
     VII. Privacy Impact Assessment ...............................................................................................6
   VIII. Plan of Action and Milestones Process .............................................................................6
      IX. NIST SP 800-53 Revision 3 Evaluation ............................................................................7
Major Contributors to this Report ..................................................................................................11
Appendix: Healthcare and Insurance’s July 30, 2014 response to the draft audit report, issued
          June 25, 2014
                                       Introduction
On December 17, 2002, President Bush signed into law the E-Government Act (P.L. 107-347),
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (IG) evaluations, (3) agency
reporting to the Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we audited the information technology (IT)
security controls related to the Office of Personnel Management’s (OPM) BENEFEDS and
Federal Long Term Care Insurance Program (FLTCIP) information systems.

                                       Background
BENEFEDS and FLTCIP are two of OPM’s critical IT systems. As such, FISMA requires that
the Office of the Inspector General (OIG) perform audits of IT security controls for these
systems, as well as all of the agency’s systems, on a rotating basis.

The BENEFEDS and FLTCIP systems are both owned by OPM’s Healthcare and Insurance
Office (HI) and operated by a contractor, the Long Term Care Partners (LTCP) organization,
located in Portsmouth, New Hampshire. The systems operate independently, but share many
operational and security controls. Therefore, we have combined our audit findings into one
report, noting any relevant differences in the appropriate sections.

This was our first audit of the security controls surrounding BENEFEDS and FLTCIP. We
discussed the results of our audit with OPM and LTCP representatives at an exit conference.

                                        Objectives
Our objective was to perform an evaluation of the systems’ security controls to ensure that OPM
and LTCP officials have implemented IT security policies and procedures in accordance with
standards established by FISMA, the National Institute of Standards and Technology (NIST), the
Federal Information System Controls Audit Manual (FISCAM) and OPM’s Office of the Chief
Information Officer (OCIO).

OPM’s IT security policies require managers of all major information systems to complete a
series of steps to (1) certify that their system’s information is adequately protected and (2)
authorize the system for operations. The audit objective was accomplished by reviewing the
degree to which a variety of security program elements have been implemented for BENEFEDS
and FLTCIP, including:
•   Security Assessment and Authorization;
•   FIPS 199 Analysis;
•   System Security Plan;
•   Security Assessment Plan and Report;
•   Security Control Self-Assessment;
•   Contingency Planning and Contingency Plan Testing;
•   Privacy Impact Assessment;

                                               1
•   Plan of Action and Milestones Process; and
•   NIST Special Publication (SP) 800-53 Security Controls.

                                Scope and Methodology
This performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of officials
responsible for the BENEFEDS and FLTCIP systems, including IT security controls in place as
of June 2014.

We considered the systems’ internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives of LTCP and individuals at OPM
with BENEFEDS and FLTCIP security responsibilities. We reviewed relevant OPM IT policies
and procedures, federal laws, OMB policies and guidance, and NIST guidance. As appropriate,
we conducted compliance tests to determine the extent to which established controls and
procedures are functioning as required.

Details of the security controls protecting the confidentiality, integrity, and availability of
BENEFEDS and FLTCIP are located in the “Results” section of this report. Since our audit
would not necessarily disclose all significant matters in the internal control structure, we do not
express an opinion on the systems’ internal controls taken as a whole.

The criteria used in conducting this audit include:
•   OPM Information Technology Security Policy Volumes 1 and 2;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   The Federal Information System Controls Audit Manual;
•   NIST SP 800-12, An Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30 Revision 1, Guide for Conducting Risk Assessments;
•   NIST SP 800-34 Revision 1, Contingency Planning Guide for Federal Information Systems;
•   NIST SP 800-37 Revision 1, Guide for Applying Management Framework to Federal
    Information Systems;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems and Organizations;
•   NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories;



                                                 2
•   NIST SP 800-84, Guide to Test, Training, and Exercise Programs for IT Plans and
    Capabilities;
•   Federal Information Processing Standards Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems; and
•   Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. This audit was conducted from January 2014
through March 2014 in OPM’s Washington, D.C. office. This was our first audit of the security
controls surrounding BENEFEDS and FLTCIP.

                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether HI and LTCP’s management of
BENEFEDS and FLCIP is consistent with applicable standards. Nothing came to our attention
during this review to indicate that HI and LTCP are in violation of relevant laws and regulations.




                                                3
                                                        Results
 I. Security Assessment and Authorization
    The Security Assessment and Authorizations (SA&As) of BENEFEDS and FLTCIP were
    completed in March 2013.

    OPM’s Chief Information Security Officer reviewed the SA&A packages and signed both
    systems’ authorization letters on March 1, 2013. The systems’ authorizing official signed the
    letters and authorized the continued operation for the systems on March 4, 2013.

    NIST SP 800-37 Revision 1 “Guide for Applying Management Framework to Federal
    Information Systems,” provides guidance to federal agencies in meeting security accreditation
    requirements. Both SA&As appear to have been conducted in compliance with NIST
    requirements.

II. FIPS 199 Analysis
    Federal Information Processing Standards (FIPS) Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems, requires federal agencies to
    categorize all federal information and information systems in order to provide appropriate levels
    of information security according to a range of risk levels.

    NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information Systems
    to Security Categories, provides an overview of the security objectives and impact levels
    identified in FIPS Publication 199.

    These documents provide guidance for analyzing information processed by the system and its
    corresponding potential impacts on confidentiality, integrity, and availability. Both the
    BENEFEDS and FLTCIP systems are categorized as a moderate impact level for confidentiality,
    integrity, and availability, resulting in an overall categorization of “moderate.”

    The security categorization of both systems appears to be consistent with FIPS 199 and NIST SP
    800-60 requirements, and we agree with the categorization of “moderate.”

III. System Security Plan
    Federal agencies must implement on each information system the security controls outlined in
    NIST SP 800-53 Revision 3 1, Recommended Security Controls for Federal Information Systems
    and Organizations. NIST SP 800-18 Revision 1, Guide for Developing Security Plans for
    Federal Information Systems, requires that these controls be documented in a System Security
    Plan (SSP) for each system, and provides guidance for doing so.




    1
     Revision 4 to NIST SP 800-53 was released in April 2013. OPM allows systems one year to implement the
    controls for the new revision. NIST SP 800-53 controls testing took place in March 2014 for this audit; therefore
    Revision 3 was used as criteria.

                                                             4
    The SSPs for BENEFEDS and FLTCIP were created using the template outlined in NIST SP
    800-18 Revision 1. We reviewed the BENEFEDS and FLTCIP SSPs and determined they
    adequately address each of the elements suggested by NIST.

IV. Security Assessment Plan and Report
    Security Assessment Plans (SAP) were completed for BENEFEDS and FLTCIP in July 2012 as
    a part of the systems’ SA&A process. Security Assessment Reports (SAR) were also completed
    for each system in February 2013. The SAPs and SARs were conducted by a contractor that was
    operating independently from HI and LTCP. We reviewed these documents to verify that a risk
    assessment was conducted in accordance with NIST SP 800-30 Revision 1, Guide for
    Conducting Risk Assessments. We also verified that appropriate management, operational, and
    technical controls were tested for a system with a “moderate” security categorization.

    The SAPs outlined the assessment approach for each system. The SAR for BENEFEDS
    identified 14 total weaknesses that were discovered as a result of the assessment; 12 of those
    weaknesses have since been remediated. The SAR for FLTCIP identified 7 total weaknesses, 5
    of which have since been remediated. All weaknesses were added to the BENEFEDS and
    FLTCIP combined Plan of Action & Milestones (POA&M) document. A risk rating was applied
    to each weakness to determine the potential impact of exploitation.

    Nothing came to our attention to indicate that the security controls of BENEFEDS and FLTCIP
    have not been adequately tested by an independent source.

V. Security Control Self-Assessment
    OPM requires that the IT security controls of each contractor-operated application be tested on
    an annual basis. In the years that an independent assessment is not being conducted on a system
    as part of an SA&A, the system’s owner must ensure that annual controls testing is performed by
    a government employee or an independent third party.

    LTCP provided us with evidence that a security controls test was conducted in 2013 by an
    independent third-party. The assessment included a review of some relevant security controls
    outlined in NIST SP 800-53 Revision 3. However, the tests results were not submitted to the
    OCIO on the standard template. Furthermore, the documentation provided did not clearly
    identify which NIST controls were tested. Although it is evident that some security control test
    work was conducted, we are unable to verify that one-third of the NIST SP 800-53 Revision 3
    controls were adequately tested, as required by OPM policy.

    Recommendation 1
    We recommend that HI ensure that annual security control testing is conducted in accordance
    with OPM policy and that the test results are submitted using the template created by the OCIO.

    HI Response:
    “The management of the BENEFEDS/FLTCIP systems concurs with each of the
    recommendations in the Draft audit and has identified a corrective action plan to address
    those audit findings determined to be unresolved as of the date of the OIG report.”

                                                    5
      OIG Reply:
      As part of the audit resolution process, we recommend that the HI provide Internal Oversight and
      Compliance with evidence that it has adequately implemented this recommendation. This
      statement also applies to all subsequent recommendations, as the HI response above addresses all
      of the recommendations in the audit report.

 VI. Contingency Planning and Contingency Plan Testing
      NIST SP 800-34 Revision 1, Contingency Planning Guide for Federal Information Systems and
      Organizations, states that effective contingency planning, execution, and testing are essential to
      mitigate the risk of system and service unavailability. OPM’s security policies require all major
      applications to have viable and logical disaster recovery and contingency plans, and that these
      plans be annually reviewed, tested, and updated.

      Contingency Plan
      The BENEFEDS and FLTCIP contingency plans document the functions, operations, and
      resources necessary to restore and resume system operations when unexpected events or disasters
      occur. Both contingency plans closely follow the format suggested by NIST SP 800-34 Revision
      1, and contain a majority of the required elements.

      Contingency Plan Test
      NIST SP 800-34 Revision 1 provides guidance for testing contingency plans and documenting
      the results. Contingency plan testing is a critical element of a viable disaster recovery capability.

      A tabletop and failover test was conducted for the BENEFEDS and FLTCIP systems by LTCP
      officials in August 2013. The exercise tested the communication and coordination between the
      LTCP staff and the contracted backup site personnel. The testing documentation contained an
      analysis and review of the results. We reviewed the testing documentation and determined that
      the tests conformed to NIST 800-34 Revision 1 guidelines.

VII. Privacy Impact Assessment
      The E-Government Act of 2002 requires agencies to perform a screening of federal information
      systems to determine if a Privacy Impact Assessment (PIA) is required for that system. OMB
      Memorandum M-03-22 outlines the necessary components of a PIA. The purpose of the
      assessment is to evaluate any vulnerabilities of privacy in information systems and to document
      any privacy issues that have been identified and addressed.

      LTCP completed a Privacy Threshold Analysis of the BENEFEDS and FLTCIP systems and
      determined that a PIA was required. PIAs were completed for both systems in February 2013
      and approved by the system owner and Chief Information Officer.

VIII. Plan of Action and Milestones Process
      A POA&M is a tool used to assist agencies in identifying, assessing, prioritizing, and monitoring
      the progress of corrective efforts for IT security weaknesses. OPM has implemented an agency-


                                                        6
    wide POA&M process to help track known IT security weaknesses associated with the agency’s
    information systems.

    We evaluated the BENEFEDS and FLTCIP POA&Ms and verified that they follow the format of
    OPM’s standard template and have been loaded into Trusted Agent, the OCIO’s POA&M
    tracking tool, for evaluation. Nothing came to our attention to indicate that there are any current
    weaknesses in the management of the POA&Ms for those systems.

IX. NIST SP 800-53 Revision 3 Evaluation
    NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information Systems
    and Organizations, provides guidance for implementing a variety of security controls for
    information systems supporting the federal government. As part of this audit, we evaluated
    whether a subset of these controls had been implemented for BENEFEDS and FLTCIP. We
    tested approximately 62 security controls outlined in NIST SP 800-53 Revision 3. We tested one
    or more controls from each of the following control families:
    •   Access Control                               •   Incident Response
    •   Awareness and Training                       •   Media Storage
    •   Audit and Accountability                     •   Planning
    •   Security Assessment and Authorization        •   Risk Assessment
    •   Configuration Management                     •   System and Services Acquisition
    •   Contingency Planning                         •   System and Communication Protection
    •   Identification and Authorization             •   System and Information Integrity

    These controls were evaluated by interviewing individuals with BENEFEDS and FLTCIP
    security responsibilities, reviewing documentation and system screenshots, viewing
    demonstrations of system capabilities, and conducting tests directly on the system.

    We determined that all tested security controls appear to be in compliance with NIST SP 800-53
    Revision 3 requirements, with the following exceptions:

    1. Control AC-5 – Separation of Duties
        LTCP does not maintain a documented policy or security matrix to outline the required
        segregation of duties related to the user roles in the BENEFEDS and FLTCIP systems.

        NIST SP 800-53 Revision 3 states that organizations should separate duties of individuals as
        necessary, to prevent malevolent activity without collusion, document separation of duties,
        and implement separation of duties through assigned information system access
        authorizations. Failure to ensure separation of duties increases the risk that the application
        users could make unauthorized or malicious changes to the application.

        Recommendation 2
        We recommend that HI ensure that a policy is developed to establish proper segregation of
        duties within BENEFEDS and FLTCIP.

                                                     7
   Recommendation 3
   We recommend that HI ensure that a routine audit of user accounts is conducted to verify
   compliance with the segregation of duties policy.

2. Control CM-2 Baseline Configuration
   LTCP has not documented baseline configurations for server operating systems. We were
   provided documentation indicating that a project is in place to establish baseline security
   configurations, but the process is not complete.

   NIST SP 800-53 Revision 3 states that organizations should develop, document, and
   maintain a current baseline configuration of the information system. Failure to establish
   approved system configuration settings increases the risk that the systems may not meet
   performance and security requirements defined by the organization.

   Recommendation 4
   We recommend that HI ensure that LTCP documents approved security configuration
   settings/baselines for all operating systems used to support the BENEFEDS and FLTCIP
   systems.

3. Control CM-6 – Configuration Settings
   LTCP does not conduct routine configuration compliance auditing. As mentioned above,
   LTCP does not maintain approved server configurations, and therefore cannot effectively
   audit security settings (i.e., there are no approved settings to which to compare the actual
   settings).

   NIST SP 800-53 Revision 3 states that the organization should monitor and control changes
   to configuration settings in accordance with organizational policies and procedures. Failure
   to implement a thorough configuration compliance auditing program increases the risk that
   insecurely configured servers remain undetected, creating a potential gateway for malicious
   virus and hacking activity that could lead to data breaches.

   Recommendation 5
   We recommend that HI ensure that LTCP routinely audits the security configuration settings
   of its servers using approved baselines.

4. Control PE-3 – Physical Access Control
   The physical access controls in LTCP’s data center could be improved.

   The LTCP’s facility uses electronic card readers to control access to the building and data
   center. However, the data center did not contain general controls that we typically observe at
   similar facilities, including:
   •   Multi-factor authentication to enter the computer room (e.g., cipher lock or biometric
       device in addition to an access card); and

                                                8
   • 	 Teclmical or physical conu·ol to detect or prevent piggybacking (e.g., tumstiles, 

       piggybacking alanns, two door "man u·aps," etc.). 


   Failure to implement adequate physical access controls increases the risk that unauthorized
   individuals can gain access to LTCP's data center and the sensitive resources and data it
   contains. NIST SP 800-53 Revision 3 provides guidance for adequately conu·olling physical
   access to infonnation systems containing sensitive data (see control PE-3, Physical Access
   Conu·ol) .

   During the course of the audit multi-factor authentication to the computer room was 

   implemented. 


   Recommendation 6
   We recommend that HI ensure the improvement of the physical access conu·ols at the FLTC
   data center hosting BENEFEDS and FLTCIP by installing additional conu·ols to prevent
   piggybacking.

5. 	 Control RA-5 -Vulnerability Scanning
   LTCP conducts monthly vulnerability scans on its network environment. However, we
   conducted·                                           ofBENEFEDS and LTCIP servers,




   We were also told that LTCP does not have a process to document or u·ack patch exceptions
   (patches that cannot be installed because they would have an adverse effect on existing
   systems or applications).

   NIST 800-53 Revision 3 states that the organization should scan for vulnerabilities in the
   infonnation system and hosted applications and remediate legitimate vulnerabilities in
   accordance with an organization risk assessment. Failure to remediate critical vulnerabilities
   increases the risk that systems could be hacked and sensitive data could be compromised.

   Recommendation 7
   We recornmend that HI ensure that LTCP remediate the critical weaknesses identified in our
   vulnerability scans.

   Recommendation 8 

   We recornmend that HI ensure that LTCP document patch exceptions. 


6. 	 Control SC-7 Boundary Protection
   LTCP has implemented firewalls to help secure its network environment. However, a
   firewall hardening policy has not been developed, and there is no routine review of the
   firewall configuration .

                                                9

NIST SP 800-53 Revision 3 states that an organization should establish a traffic flow policy
for each managed interface, document and review each exception to the traffic flow policy,
and remove exceptions that are no longer supported by a business need.

Failure to implement a thorough firewall configuration policy and continuously manage the
devices’ settings increases the organization’s exposure to insecure traffic and vulnerabilities.

Recommendation 9
We recommend that HI ensure that LTCP documents a formal firewall management policy.

Recommendation 10
We recommend that HI ensure that LTCP implement a process to conduct routine
configuration reviews on its network firewalls to ensure performance and security
optimization, as defined by the organizational policies.




                                             10
                            Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:
•                    , Group Chief
•               , Lead IT Auditor
•                       , Lead IT Auditor
•              IT Auditor
•               , IT Auditor




                                              11
                                                     Appendix

                        UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                  1900 E Street, NW, Washington, DC 20415

Healthcare and
  Insurance


                                                     June 30, 2014

      MEMORANDUM FOR:
                                      Chief, Information Systems Audits Group
                                      Office of the Inspector General

      FROM:
                                      Deputy Assistant Director, Federal Employee Insurance
                                      Operations
                                      BENEFEDS/FLTCIP System Owner


      SUBJECT:                        Management Response to Draft Audit of the Information
                                      Technology Security Controls of the U.S. Office of Personnel
                                      Management’s BENEFEDS and Federal Long Term Care
                                      Insurance Program (FLTCIP) Systems (Report No. 4A-RI-00-14-
                                      036)

      The Office of Personnel Management (OPM) Federal Employee Insurance Operations Program
      Office and its contractor, Long Term Care Partners, LLC; acknowledge and accept the findings
      of the Office of Inspector General (OIG) as documented in Report No. 4A-RI-00-14-036 for both
      the BENEFEDS and Federal Long Term Care Insurance Program (FLTCIP) Systems.

      The management of the BENEFEDS/FLTCIP systems concurs with each of the
      recommendations in the Draft audit and has identified a corrective action plan to address those
      audit findings determined to be unresolved as of the date of the OIG report. The plan elements
      are provided in the attached spreadsheet. The process to identify required resources, identify
      milestones, respond to the risk (acceptance, transfer, mitigation/remediation), complete planned
      work, and provide evidence of mitigation/remediation will follow the OPM standard operating
      procedure for Plan of Actions and Milestones (POA&M) management. Those recommendations
      outlined in the report that cannot or should not be implemented due to technical limitations,
      significant negative impacts to performance or service delivery, or other factors will be
      communicated to OPM Internal Oversight and Compliance and the OPM IT Security and
      Privacy (ITSP) Office for review and discussion prior to any risk acceptance decision.

      If you have questions about implementation of the POA&M’s, please contact
      Designated Security Officer, and                .




      www.opm.gov      Recruit, Retain and Honor a World-Class Workforce to Serve the American People   www.usajobs.gov
